NOT RECOMMENDED FOR PUBLICATION
No. 19-3965

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Sep 01, 2020

FELICIA ROSS,

DEBORAH S. HUNT, Clerk

)
)
)

Plaintiff-Appellant,
v.
PEREGRINE HEALTH SERVICES, INC., et al
Defendants-Appellees.

4)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO '

)

ORDER
Before: SILER, STRANCH, and DONALD, Circuit Judges.
Felicia L. Ross, administratrix of the estate of Gladys K. Brown, an Ohio resident, appeals
pro se a district court order dismissing a complaint she filed under Title VI of the Civil Rights Act
of 1964 and state law. This case has been referred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a),
RToss filed a complaint as" administratrix of the estate hf her deceased aunt, alleging that her
aunt had received improper care while at nursing homes and hospitals owned by the defendants.
The complaint alleged age and disability discrimination, malpractice, financial abuse, wrongful
death, negligence, and other claims as well as sought damages on behalf of the estate, the next of
kin, and anyone else entitled to compensation. Ross also moved to proceed in forma pauperis.
The distiict court screened the complaint, granted the motion for in forma pauperis status, and
dismissed the complaint without prejudice under 28 U.S.C. § 1915(e), because Ross , a nonattorney, could not bring claims on behalf of others.

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.usco\irfc f>nv

Filed: September 01, 2020

Ms. Susan M. Audey
Tucker Ellis
950 Main Avenue
Suite 1100
-Ole v eland,-OH-4444 3 ' —-—

Ms. Felicia Ross
97 E. Interstate
Bedford, OH 44146
Mr. Edward E. Taber
Tucker Ellis
950 Main Avenue
Suite 1100
Cleveland, OH 44113
Re. Case No. 19-3965, Felicia Ross v. Peregrine Health Services, et al
Originating Case No.: 5:19-cv-01500

Dear Ms. Ross and Counsel,
The Court issued die enclosed Order today in this case.
Sincerely,
s/Antoinette Macon
Case Manager
Direct Dial No. 513-564-7015
cc: Ms. Sandy Opacich
Enclosure
Mandate to issue

Case: 5:19-cv-01500-JRA Doc#: 3 Filed: 08/28/19 lof2. PagelD#:32

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

FELICIA L. ROSS, ADMINISTRATRIX
FOR THE ESTATE OF
GLADYS BROWN,
Plaintiff,
v.

)
)
)
)
)
)
)
)

CASE NO. 5:19 CV 1500
JUDGE JOHN R. ADAMS

ORDER OF DISMISSAL

PEREGRINE HEALTH SERVICES, et al., )
Defendants.

)
)

Pro se Plaintiff Felicia Ross filed this wrongful death action on behalf of the Estate of
Gladys Brown and Ms. Brown’s next of kin against Peregrine Health Services, Inc., McCrea
Manor Nursing and Rehabilitation Center, Murrey Wellington Funeral Home, Aultman Hospital,
Embassy Healthcare Grande Oaks Nursing and Rehabilitation, the Cleveland Clinic, Care
Source, and the United States Railroad Retirement Board.
In general, a party may plead and conduct his or her case in person or through a licensed
attorney. See 28 U.S.C. § 1654; Eagle Associates v. Bank of Montreal, 926 F.2d 1305, 1308 (2d
Cir. 1991).1 A plaintiff, however, may not appear pro se where interests other than her own are

28 U.S.C. § 1654 provides:
In all courts of the United States the parties may plead and
(continued...)

Case: 5:19-cv-01500-JRA Doc #: 3 Filed: 08/28/19 2 of 2. PagelD#:33

at stake. Shepherd v. Wellman, 313 F.3d 963, 970 (6th Cir. 2002) (citing Iannaccone v. Law, 142
F.3d 553, 558 (2d Cir. 1998)). Therefore, an executor or administrator of an estate may not
appear pro se when the estate has beneficiaries and/or creditors other than the litigant. Id. (citing
Pridgen v. Andersen, 113 F.3d 391, 393 (2d Cir. 1997)). Plaintiff indicates that she is filing this
action on behalf of the Estate and decedent’s next of kin. She is not a licensed attorney and
cannot represent others, including the Estate, in court.
Accordingly, Plaintiffs Motion to Proceed In Forma Pauperis is granted and this action
is dismissed without prejudice. The Court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an
appeal from this decision could not be taken in good faith.2
IT IS SO ORDERED.

s/.Tohn R Adams 8/28/19___________
JOHN R. ADAMS
UNITED STATES DISTRICT JUDGE

'(...continued)
conduct their own cases personally or by counsel as by the rules
of such courts, respectively, are permitted to manage and
conduct cases therein.
28 U.S.C. § 1915(a)(3) provides:
An appeal may not be taken in forma pauperis if the trial court certifies that it is
not taken in good faith.
-2-

Case: 5:19-cv-01500-JRA Doc#: 4 Filed: 08/28/19 1 of 1. PagelD#:34

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

FELICIA L. ROSS, ADMINISTRATRIX
FOR THE ESTATE OF
GLADYS BROWN,
Plaintiff,
v.

)
)
)
)
)
)
)
)

CASE NO. 5:19 CV 1500
JUDGE JOHN R. ADAMS

JUDGMENT ENTRY

PEREGRINE HEALTH SERVICES, et al., )
Defendants.

)
)

For the reasons set forth in the Court’s Order of Dismissal, this action is dismissed
pursuant to 28 U.S.C. § 1915(e). Further, the Court CERTIFIES pursuant to 28 U.S.C.
§ 1915(a)(3) that an appeal from this decision could not be taken in good faith.

s/John R. Adams 8/28/19
JOHN R. ADAMS
UNITED STATES DISTRICT JUDGE

No. 19-3965

united states court of appeals
FOR THE SIXTH CIRCUIT
FELICIA ROSS,

)
)
)
)

Plaintiff-Appellant,
v.

)
)

PEREGRINE HEALTH SERVICES, INC., et ai.,
Defendants-Appellces.

FILED

Oct 20, 2020
DEBORAH S. HUNT, Clerk

ORDER

)
)

"r
)

Before: SILER, STRANCH, and DONALD, Circuit Judges.

Felicia L. Ross, administratrix of the estate of Gladys K. Brown and an Ohio resident, has
filed a petition for rehearing of this court’s order of September 1,
court’s judgment dismissing without prejudice her complaint filed

2020, affirming the district
under Title VI of the Civil

Rights Act of 1964 and state law.
Upon consideration, this panel concludes that it did

not misapprehend or overlook any
point of law or fact when it issued its order. See Fed. R. App. P. 40(a)(2).
We therefore DENY the petition for rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

v

No. 19-3965
-3-

Accordmgiy, we AFFIRM the district court s dismissal of this complaint.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

A ffienol/X B

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: October 29,2020

Ms. Sandy Opacich
Northern District of Ohio at Cleveland
801 W. Superior Avenue
Suite 100 Carl B. Stokes U.S. Courthouse
Cleveland, OH 44113-1830
Re: Case No. 19-3965, Felicia Ross v. Peregrine Health Services et al
Originating Case No. : 5:19-cv-01500
Dear Ms. Opacich,
Enclosed is a copy of the mandate filed in this case.
Sincerely yours,
s/Zachary Love
For Patricia Elder
Senior Case Manager
cc: Ms. Susan M. Audey
Ms. Felicia Ross
Mr. Edward E. Taber
Enclosure

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.pnv

Filed: October 20, 2020

Ms, Felicia .Ross . _
97 E. Interstate
Bedford, OH 44146
Re: Case No. 19-3965, Felicia Ross v. Peregrine Health Services, et al
Originating Case No.: 5:19-cv-01500
Dear Counsel,
The Court issued the enclosed Order today in this case.
Sincerely,
s/Antoinette Macon
Case Manager
Direct Dial No. 513-564-7015
cc: Ms. Susan M. Audey
Ms. Sandy Opacich
Mr. Edward E. Taber
Enclosure

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No: 19-3965

Filed: October 29, 2020
FELICIA ROSS, Administratrix of the Estate of Gladys K. Brown, deceased
..■---

. Plaintiff - Appellant-,.

v.
PEREGRINE HEALTH SERVICES, INC.: MCCREA MANOR NURSING AND
REHABILITATION CENTER; MURREY WELLINGTON FUNERAL HOME- NANCY
MURREY; LAURA LIVINGSTON; AULTMAN HOSPITAL; EMBASSY HEALTHCARE
CURSING AND REHABILITATION; CLEVELAND CLINIC;
RETIRmOT^LOA^DSOUTHPOINTE; CARES0URCE; UNHED STATES RAILROAD
Defendants - Appellees

MANDATE
Pursuant to the court’s disposition that was filed 09/01/2020 the mandate for this case hereby
issues today.

COSTS: None

PROBATE COURT OF STARK COUNTY, OHI
DIXIE PARK, JUDGE
JUDGE DIXIE PARK
STARK COUNTY PROBATE COURT

IN RE: ESTATE OF GLADYS K. BROWN, DECEASED
CASE NO. 232895
JUDGMENT ENTRY

This matter came before the Court on an Application for Authority to Administer.Estate.
filed by Felicia Ross on October 31,2018.
The Court hereby ORDERS Applicant to post bond in the amount of $20,000.00.
IT IS SO ORDERED.

NOV - § 2018
Date

i/t

JUDGE DIXIE PARK

PROBATE COURT OF STARK COUNTY, OlJp H Hi Hi
DIXIE PARK, JUDGE

IT

ESTATE OF Gladys K. Brown
CASE WO.

182 8&§

JUDGE BIXIEPARK
STARK GOU&STY PROBATE COURT

ENTRY APPOINTING FIDUCIARY; LETTERS OF AUTHORITY
[For Executors and all Administrators]

Name and Title of Fiduciary

Felicia Ross

. kkflliflKjrtrk)/

On hearing in open Court the application of the above fiduciary for authority to administer decedent's estate
the Court finds that:
Decedent died [check one of the following] □ testate - jxj intestate - on December 7th 2017
domiciled in 2040 McCrea street Alliance. Ohio 44*501______________________________
[Check one-of the following]
□ Bond is dispensed with by the Will □ Bond is dispensed with by law 0 Applicant has executed and filed an appropriate bond, which is approved by the Court; and
Applicant is a suitable and competent person to execute the trust.
The Court therefore appoints applicant as such fiduciary, with the power conferred by law to fully administer
decedent's estate. This entry of appointment constitutes the fiduciary's letters of authority.

NOV 2 X2018
Date

Dixie Park, Probate Judge

CtKTiFlGATE

of appointment andincumbency

The above document is a true copy of the original kept by me as custodian of the records of this Court. It
constitutes the appointment and letters of authority of the named fiduciary, who is qualified and acting in such
capacity.

Dixie Park, Probate Judqe/Cterk

by:.
[Seal]

HOV 2 S 2018
Date

FORM 4.5 - ENTRY APPOINTING FIDUCIARY; LETTERS OF AUTHORITY

4 Dixie Park, Judge and Clerk of the Probate
Division, Court of Common Pleas, Stark
County. Ohio, do certify that the foregoing
document is a true copy 0f the original on file
in or/ office. In TESTIMONY, I have executed
my signature and affixed the Court’s Seal at
Canton, Ohio, this____
jday of
--------NQV .0, 6 2018
,2i
Dixie Park, Judge/
Sy Deputy;
fA --

PROBATE COURT OF STARK COUNTY, OH I ^ ^
DDC,E PARK’JUD6E

ESTATE OF

CASE NO.

it

22 2020 ^

Gladys k. Brown

juDsnnxirpRM

232895

-STARK COUflH PROBATE COURT

APPLICATION TO EXTEND ADMINISTRATION
[R.C. 2109.301,Sup. R 78(B) and (C)]

ag

Firlii r,ip CV l havfi filflri a rilaim in I IriitArl Rfatpg r^oi irt nf Appeals Pinrinngti Dhin

*•;
•-V

• • Ow'w

: . MjL,

Attorney

Fiduciary

Attorney Registration No.

ENTRY

JAN 2 3 2020
JUDGE DIXIE PARK
STARK COUNTY PROBATE COURT

Upon consideration of the Application, the Court orders:

□
□

An account or certificate of termination shall be due not later than thirteen months after the
appointment of the fiduciary.

D

A final and distributive account or certificate of termination is due
The Application is denied.

El

®^1er> ’fi'

x "ri

U

£:\r>A

' i-i *

V

V-^L-gL\

3

A status letter shall be filed with each partial account or waiver of partial account,
...

-

•

> «•

< 4: •

,f

;

■

••;\

.

. f

Dixie Park- Probate Judge
Si
FORM 13.8 - APPLICATION AND ENTRY TO EXTEND ADMINISTRATION

12/01/2002

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTIRCT OF OHIO

Felicia L. Ross Representative for Gladys K. Brown
VS
McCrea Manor Nursing & Rehab et.al
Rail Road Retirement Board et.al
Aultman Hospital et.al
Grande Oaks, Grande Oaks Heritage care

COMPLAINT

mmmmsrn

iS5=HS~i=3|53g
"

-i” i “ - ««•. s—, i uSS'ES ESSS “

resoomive ft0 ?C after the phone conversation and said that my aunt was not

because (if the greed, deceit, lies, and dishonesty McCrea Manor caused for my fS don'
“Ty TiCa?! ?? COntaCt With MoCrea Manor 1 Talked to Jooi Starks the B^iness
anager she said she didn t know who admitted her, I also ask the head nurse she didn’t know
her neither one ever met any family member of Mrs. Gladys K. Brown I went to visit McCrea

theft,
„ -1 DUnd!^ hardshlP’ elderly abuse> material exploitation, and pain and suffering. The
Rail Road Retirement Board told her representative that a person at McCrae Manor was
her representative. This kind of malicious act caused my aunt to have a stroke and now
fighting for her life.
Damages6^°f MrS'
1

K'

We *** Seeking’

damages, general

2600 ^ St S-W Canton’ OMo 44720 September 25th 2017 to October
£L:? ]7’
Gla<Jys K-Browns CM rights to health care, violation under
^
J 2003.33.Anltman hospital used inappropriately use of physical restraint to
uw
K; B!°Wn15 Aultman hospital, violated her rights to live her life to the best
, a , t , ,has for.^ thf> residents and nurses wanted me to sign papers to not give her
food I told them if she doesn’t eat if I sign these papers that’s murder I’ not going to
murder my aunt she’s still living, they responded well’ she’s 95 and old and had a stroke
wouldn t put my grandmother through the pain, I said she’s not in pain she needs food
they did not give her food for 8 days they tried to murder her. I ask for them to send her’
to Cleveland clinic they denied me but they did not deny her to be moved to a nursing
home that abused her as well., which she was only there for less than a week when she
was rushed to a hospital for a hear rate at 40, Aultman hospital tried to murder my aunt
theywork with McCrea Manor McCrea Manor tried to get rid of my aunt because they ’
are trying to cover up their fraud, theft, malicious acts nursing home abuse and let’s not
torget kidnapping. Aultman hospital violated Mrs. Brown’s rights.
On behalf of Mrs. Gladys K. Brown were are seeking punitive and general damages
S6 Care. Grande Oak. 24579 Broadway av. Oakwood Village Ohio
44146, Grande Oaks violated Mrs. Browns rights under 3721.13,3701-64-01 Mrs.
Brown was found by me her niece POA and family laying in poop, hand and legs all
cover in poop head slouched over to right side of bed, food turned off October 13th 2017
3:00 pin bed flat food coming out of her nose and mouth head slumped over. On October
no food still, gave her aerosol spray I ask that they did not give her the aerosol
because of her heart, but they gave it to her any ways, they gave her the aerosol twice I
aid please don t give her that the respiratory nurse said oh it’s just to get the mucus out
ot her I said use the suction, that they gave it to her anyways, On October 15th her heart
was racing a little too fast I ask what was wrong I got no answer this was 1 ;00 pm air O
October 16 found her slouched again food dosage to high food coming out of her mouth
bed too low for peg feeding just amess, on October 17th 2017 air conditioning on high no
ifkfV54 de§rees outside, no catheter, food dosage rang to high, bed was leveled flat I
called the nurse ask why is she breathing so fast they all look around as if it was normal I
said this is not good what is going on, they still took their time to address the issue her
heart rate was racing so fast and nobody cared they just slowed around this was not
no
, rmal her heart was racinS as fast as if she ran around a football field twee I ask called
the nurse still no one came, I got no answer for two hours later they called the ambulance

defraud, undue hardship, elderly abuse, theft, exploitation, pai
suffering, material exploitation,
fraud, 2913.01
'3Un<e_ ZZ Zp/'ICy^/s 'oPc&e
Seeking punitive damages.

Q -'vks

f Qrra-ndv £mks

9 M r&aclfijay

Q'abotfpci {//((

4. Grande Oaks cause Gladys k. Brown to be a victim of nursing home abuse Mrs Brown wa?*^
£1“ imDroDe 6SS
When
Bro™ ™ «* Siven t^b""
teeament, the improper medication, improper medical care and service, improper dosage of food

gettmg proper and good care at Grande oaks is because the management is taking all the money
fhd"‘ p£Tn® hemen0us!i 1 ask the nurse well if this is the only reason the money you’re in
not r* b“smfs’1 want.my aunt ,akins good care of I came morning noon or nighuhey did
no, taow when I was commg and now my aunt is fighting for her life, because if the negteof

SSte~drrn?bUSe- f“1Ure *° 8‘Ve my a“”

best care

she ^served Grande

ttem t0 Pay for what they did to her.
M sXS'lo^fSf" dama86S

//Ucu^J^

£& / 7

damages and general damages for

J^nprcmc Court of ©l|to
OFFICE OF THE CLERK
65 South Front Street, Columbus, OH 43215-3431
Chief Justice
Maureen O'Connor

Clerk of the Court
Sandra H. Grosko

Justices
Sharon L. Kennedy
Patrick F. Fischer
R. Patrick DeWine
Michael P. Donnelly
Melody J. Stewart
Jennifer Brunner

Telephone 614.387.9530
Facsimile 614.387.9539
supremecourt.ohio.gov

February 02, 2021
Felicia Ross
97 E. Interstate
Bedford, OH 44146
Dear Ms. Ross:
The enclosed document was not filed because it does not meet the requirements of the Rules of
Practice of the Supreme Court of Ohio. Specifically, your appeal is untimely. Pursuant to Rule
7.01(A)(1), your notice of appeal and memorandum in support of jurisdiction are due within 45
days from the date of the court of appeals judgment being appealed. An appeal of an October 29,
2020 decision as indicated by the notice of appeal was due in the clerk’s office on or before
December 14, 2020. Your document was received on February 2, 2021. The clerk’s office is not
permitted to file untimely documents and motions to waive this rule are prohibited pursuant to
Rule 3.02(B).
The Rules of Practice permit the filing of a delayed appeal if the appeal is from a felony
conviction. A motion for delayed appeal can be filed by submitting all of the following: a notice
of appeal listing the date of the court of appeals judgment being appealed and stating that the
case involves a felony; a motion for delayed appeal that states the date of the entry of the
judgment being appealed, gives adequate reasons for the delay, and contains a notarized affidavit
in support of the facts set forth in your motion; a complete copy of the court of appeals’ decision
being appealed; and a notarized affidavit of indigence meeting the court’s requirements (or an
entry appointing you counsel or the $100 filing fee).
Enclosed is a copy of the Rules of Practice and Guide to Filing for further guidance. Information
on delayed appeals begins on page 20 of the guide.
Sincerely,
Clerk’s Office
Enclosures

Northern -District of Ohio

https://ecf.ohnd.circ6.dcn/cgi-bin/DktRpt.pl7644008982810228-L_l_0-l
Appeal, Burke, Cat03,LC 1 .Termed
U.S. District Court
Northern District of Ohio (Akron)
CIVIL DOCKET FOR CASE #: 5:19-cv-01500-JRA

Ross v. Peregrine Health Services, Inc. et al
Assigned to: Judge John R. Adams
Cause: 28:1331 Fed. Question

Date Filed: 07/01/2019
Date Terminated: 08/28/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
... „......Felicia L. Ross
.......
Administratrix of the Estate of
Deceased
Gladys K. Brown

represented by Felicia L. Ross
97 E. Interstate
Bedford, OH 44146
Email:
PROSE

V.
Defendant
Peregrine Health Services, Inc.
Defendant
McCrea Manor Nursing and Rehabilitation
Center
Defendant
Murrey Wellington Funeral Home et al
Defendant
Nancy Murrey
Defendant
Laura Livningston
Defendant
Auitman Hospital ct. al
Defendant
Embassy Healthcare Grande Oaks Nursing
and Rehabilitation et al

J

Defendant
Cleveland Clinic et al
Defendant
Cleveland Clinic Southpointe et al

1 of 2

10/8/2019,9:29 AM

Defendant
Care Source et. al
Defendant
US. Rail Road Retirement Board et.al
Email All Attorneys______ _____
Email Ali Attorneys and Additional Recipients \
Date Filed

07/01/2019

#

Docket Text

I Complaint against Aultman Hospital et. al, Care Source et. al, Cleveland Clinic Southpointe
et. al, Cleveland Clinic et. al, Embassy Healthcare Grande Oaks Nursing and Rehabilitation
et. al, Laura Livningston, McCrea Manor Nursing and Rehabilitation Center, Nancy Murrey,
Murrey Wellington Funeral Home et. al, Peregrine Health Services, Inc., US. Rail Road
Retirement Board et.al. Filing fee not paid, IFP. Filed by Felicia L. Ross. (Attachments: # \
Envelope, # 2 Civil Cover Sheet, # 3 Summons) (B,R) (Entered: 07/01/2019)

07/01/2019

Judge John R. Adams assigned to case, (B,R) (Entered: 07/01/2019)

07/01/2019

Random Assignment of Magistrate Judge pursuant to Local Rule 3.1. In the event of a
referral, case will be assigned to Magistrate Judge Kathleen B. Burke. (B,R) (Entered07/01/2019)

07/01/2019

2

Motion to proceed in forma pauperis filed by Plaintiff Felicia L. Ross. (B,R) (Entered:
07/01/2019)

08/28/2019

3

Order of Dismissal. A plaintiff may not appear pro se where interests other than her own are
at stake. Plaintiff indicates that she is filing this action on behalf of the Estate and decedent's
next of kin. She is not a licensed attorney and cannot represent others, including the Estate,
in court. Accordingly, Plaintiffs Motion to Proceed In Forma Pauperis is granted and this
action is dismissed without prejudice. The Court certifies, pursuant to 28 U.S.C. §
1915(a)(3), that an appeal from this decision could not be taken in good faith. Judge John R.
Adams on 08/28/2019. (M,TL) (Entered: 08/28/2019)

08/28/2019

4

Judgment Entry. For the reasons set forth in the Court's 3 Order of Dismissal, this action is
dismissed pursuant to 28 U.S.C. §1915(e). Further, the Court CERTIFIES pursuant to 28
U.S.C. §1915(a)(3) that an appeal from this decision could not be taken in good faith. Judge
John R. Adams on 08/28/2019. (M,TL) (Entered: 08/28/2019)
......

08/28/2019
09/30/2019

Copy of 3 Order of Dismissal and 4 Judgment Entry mailed to Felicia L. Ross, 97 E.
Interstate, Bedford, OH 44146 on 08/28/2019. (M,TL) (Entered: 08/28/2019)
5

NOTICE OF APPEAL (Unsigned) to the Sixth Circuit Court of Appeals from the 3 Order
of Dismissal and 4 Judgment, filed by Felicia L. Ross. Filing fee not paid. (H,SP) (Entered10/08/2019)

2 of 2

10/8/2019, 9:29 AM

